No. 19-1079
In the

Supreme Court of the United States
__________________

M.W. WATERMARK, LLC AND MICHAEL GETHIN,
Petitioners,
v.
EVOQUA WATER TECHNOLOGIES, LLC,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

BRIEF IN OPPOSITION
__________________
CRAIG R. SMITH
ERIC P. CARNEVALE
LANDO & ANASTASI, LLP
60 State Street, 23rd Fl.
Boston, MA 02109
(617) 395-7000
csmith@lalaw.com
ecarnevale@lalaw.com

KEVIN M. BLAIR
Counsel of Record
HONIGMAN LLP
315 E. Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
(734) 418-4242
kblair@honigman.com

Counsel for Respondent

April 2, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Court of Appeals for the Sixth Circuit issued a
unanimous panel decision reversing the district court’s
construction of a 2003 permanent injunction entered
against Petitioners M.W. Watermark, LLC and Michael
Gethin. The court then refused to rehear the case after
the original panel reviewed a petition for rehearing and
concluded that the issues raised in the petition were
fully considered, and no judge requested a vote on the
request for rehearing en banc.
The question presented is whether the Sixth Circuit
properly construed the 2003 Permanent Injunction to
be assignable.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
COUNTERSTATEMENT OF THE CASE . . . . . . . . 3
A. Appellee’s First Acts of Trade Secret
Misappropriation and Trademark Infringement . 3
B. The Corporate Succession from U.S. Filter to
Evoqua. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C. Watermark and Gethin Were Held in Contempt
for Violating the Permanent Injunction . . . . . . . 7
D. The Successor-in-Interest Dispute. . . . . . . . . . . 10
E. The District Court’s Order Vacating the Prior
Contempt Order . . . . . . . . . . . . . . . . . . . . . . . . . 13
F. The Sixth Circuit Reverses the District Court’s
Order . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
REASONS FOR DENYING THE PETITION. . . . . 16
A. The Petition’s Questions Presented Ask This
Court to Resolve Factual Disputes. . . . . . . . . . . 16
B. Watermark Asks the Court to Resolve Questions
of State Contract Law. . . . . . . . . . . . . . . . . . . . . 20

iii
C. The Petition Fails to Identify Any Relevant
Circuit Split. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
D. The Unanimous Panel of the Sixth Circuit
Correctly Applied This Court’s Precedents . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix 1 Opinion in the United States District
Court for the Western District of
Michigan Southern Division
(September 12, 2016) . . . . . . . . . . App. 1

iv
TABLE OF AUTHORITIES
CASES
Blue Chips Stamps v. Manor Drug Stores,
421 U.S. 723 (1975). . . . . . . . . . . . . . . . . . . passim
Cornelius v. Hogan,
663 F.2d 330 (1st Cir. 1981) . . . . . . . . . . . . . . . . 26
Huguley v. General Motors Corp.,
67 F.3d 129 (6th Cir. 1995). . . . . . . . . . . 24, 25, 26
Jawad A. Shah, M.D., PC v. State Farm Mut.
Auto. Ins. Co.,
920 N.W.2d 148 (Mich. Ct. App. 2018). . . . . . . . 29
John Wiley & Sons, Inc. v. Livingston,
376 U.S. 543 (1964). . . . . . . . . . . . . . . . . . . . . . . 25
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992). . . . . . . . . . . . . . . . . . . . . . . 27
Newman v. Graddick,
740 F.2d 1513 (11th Cir. 1984). . . . . . . . . . . . . . 26
Nken v. Holder,
556 U.S. 418 (2009). . . . . . . . . . . . . . . . . . . . . . . 30
PDR Network, LLC v. Carlton & Harris
Chiropractic, Inc., 139 S. Ct. 2051 (2019) . . . . . 23
Sault Ste. Marie Tribe of Chippewa Indians v.
Engler, 146 F.3d 367 (6th Cir. 1998) . . . . . . . . . 28
Sprint Commc’ns Co., L.P. v. APCC Servs., Inc.,
554 U.S. 269 (2008). . . . . . . . . . . . . . . . . . . . . . . 18

v
Thatcher v. Kohl’s Dep’t Stores Inc.,
397 F.3d 1370 (Fed. Cir. 2005) . . . . . . . . . . passim
United States v. Armour & Co.,
402 U.S. 673 (1971). . . . . . . . . . . . . . . . . . . passim
United States v. ITT Cont’l Baking Co.,
420 U.S. 223 (1975). . . . . . . . . . . . . . 19, 20, 28, 30
United States v. State of Mich.,
940 F.2d 143 (6th Cir. 1991). . . . . . . . . . . . . . . . 26
Williams v. Vukovich,
720 F.2d 909 (6th Cir. 1983). . . . . . . . . . . . . . . . 28
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed. R. Civ. P. 17 . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Fed. R. Civ. P. 25 . . . . . . . . . . . . . . . . . . . . . . . . 14, 17
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Restatement (Third) of Torts: Prod. Liab. (1998) . . 25

1
BRIEF IN OPPOSITION
OPINIONS BELOW
The opinion of the Court of Appeals for the Sixth
Circuit (Pet. App. 1a-53a) is reported at 940 F.3d 222.
The appellate court’s order denying Petitioner’s
petition for en banc review (Pet. App. 128a-129a) was
issued on November 21, 2019, and is unreported.
The 2003 Permanent Injunction entered against
Petitioners (Pet. App. 123a-127a) is unreported. The
decision by the district court holding Petitioners in
contempt for violating the 2003 Permanent Injunction
is unreported, but is available at 2016 WL 4727432,
and is attached to this Brief in Opposition. The district
court’s opinion vacating that order, from which the
appeal to the Sixth Circuit was taken, is unreported,
but is available at 2017 WL 3574785, and the order is
available at 2017 WL 4479262.
JURISDICTIONAL STATEMENT
Respondent does not dispute this Court’s
jurisdiction over this case pursuant to 28 U.S.C.
§ 1254(1), but denies that the case satisfies the
standard set forth in Supreme Court Rule 10.
INTRODUCTION
In 2003, Watermark infringed Evoqua’s
trademarks, and Watermark’s President was caught
with thousands of pages of Evoqua’s confidential, trade
secret, and proprietary information (the “2003
Litigation”). Watermark and its President agreed to be
bound by a permanent injunction to settle a pending

2
litigation. But Watermark and its President ignored
the Permanent Injunction and again infringed the
same trademarks, and stole thousands of pages of
Evoqua’s confidential, trade secret, and proprietary
information.
In 2016, Watermark was found to be in contempt of
the 2003 Permanent Injunction. But, after the original
judge in the case retired, the new judge assigned to the
case decided to revisit the contempt finding. He
questioned whether courts should even be “getting
involved in contempt” and vacated the contempt order,
finding that 2003 Permanent Injunction was not
assignable. Dkt. 147 at 6:17-7:8. A unanimous panel
of the Sixth Circuit reversed the district court’s
vacating order. Watermark’s request for en banc
review was denied, with no judge requesting a vote for
hearing en banc. Pet. App. 128a-129a.
Watermark’s Petition should be denied for at least
four reasons. First, Watermark asks this Court to
resolve a factual issue not decided below and then
apply settled law to these new facts. Watermark’s
questions imply that Evoqua is a third-party
beneficiary rather than a successor-in-interest. This
factual issue was not decided by the Sixth Circuit and
should not be resolved by this Court.
Second, the Petition improperly asks this Court to
decide issues of state law. Watermark asks this Court
to reverse the decision of the Sixth Circuit, applying
Michigan state contract law, in favor of an opinion of
the Federal Circuit applying Illinois state law
regarding the construction of the contract-like aspects
of a consent decree.

3
Third, there is no circuit split to resolve. Although
Watermark’s “questions presented” never identify an
alleged circuit split, Watermark devotes nearly half of
its Petition to claiming there is one. What Watermark
characterizes as a circuit split is simply a different
circuit applying different state law to different facts.
The Sixth Circuit already addressed this argument,
finding the facts in this case to be distinguishable.
Finally, the Sixth Circuit did not “ignore” this
Court’s precedent. In fact, it cited to and discussed this
Court’s precedents, as even the Petition acknowledges.
The court looked at the circumstances surrounding the
entry of the Permanent Injunction and concluded that,
under Michigan law, “the Consent Decree’s mere
silence on the question of assignability does not evince
an intent to prohibit assignment.” Pet. App. 14a.
Thus, Watermark’s Petition should be denied.
COUNTERSTATEMENT OF THE CASE
A. Appellee’s First Acts of Trade Secret
Misappropriation and Trademark
Infringement
For fourteen years, Petitioner Michael Gethin was
employed by Evoqua’s predecessor-in-interest, U.S.
Filter/JWI, Inc. (“U.S. Filter”). Dkt. 29-1 PgID.880-81
(Gethin Aff.).1 While still employed at U.S. Filter, Mr.
Gethin incorporated a limited liability company named
J-Parts, LLC.
2003 Dkt. 1-1 PgID.54-55 (2003
1

All citations to “Dkt.” are to the district court docket in Evoqua
Water Technologies LLC v. M.W. Watermark, LLC, No. 1:16-cv00014 (W.D. Mich.).

4
Complaint).2 Mr. Gethin chose this name because U.S.
Filter sold several products under brands utilizing a
“J-” prefix, such as J-PRESS® and J-MATE®. See e.g.,
2003 Dkt. 37-5, 37-6 PgID.569-585 (Trademark
Assign.). Mr. Gethin intended to use his new business
to compete with U.S. Filter by selling aftermarket
parts for U.S. Filter equipment and trading off the
industry recognition for U.S. Filter and its “J-” prefix
brands. 2003 Dkt. 1-1 PgID.58-59.
In addition to infringing U.S. Filter’s trademarks
and creating the false impression of an association
between U.S. Filter and J-Parts, Mr. Gethin also
downloaded a massive amount of U.S. Filter’s
confidential, proprietary, and trade secret information
shortly before resigning from U.S. Filter. 2003 Dkt. 1-1
PgID.14-15. Mr. Gethin stole contact information and
serial numbers for all J-PRESS® filter presses that
U.S. Filter had sold, customer contact information for
all reseller customers, and price lists for spare parts.
2003 Dkt. 1-1 PgID.57-58.
U.S. Filter sued Mr. Gethin and his company, JParts, in the United States District Court for the
Western District of Michigan for misappropriation of
trade secrets and trademark infringement.
See
generally Dkt. 1-1. The case resulted in a settlement
agreement, which incorporated a Permanent Injunction
(the “Permanent Injunction”). Pet. App. 123a-127a.
The Permanent Injunction included two substantive
provisions, both of which applied exclusively to Mr.
2

All citations to “2003 Dkt.” are to the district court docket in U.S.
Filter/JWI, Inc. v. J-Parts, L.L.C., No. 5:03-cv-00127 (W. D. Mich.).

5
Gethin and his company, which had changed its name
to M.W. Watermark. Id. at 124a-125a. The Permanent
Injunction enjoined Watermark and Mr. Gethin from
using any colorable imitation of U.S. Filter’s
trademarks:
1. Defendants are ENJOINED, permanently,
from using Plaintiff U.S. Filter/JWI, Inc.'s
(“USF/JWI's”) trademarks J-PRESS®, JMATE®, and J-VAP® (“USF/JWI’s
Trademarks”) and colorable imitations thereof
and any other designs, designations or indicia in
a manner that is likely to cause confusion,
mistake or deception with respect to USF/JWI’s
trademark rights . . . .
Id. at 124a (emphasis added). Watermark and Mr.
Gethin were also permanently enjoined from using,
disclosing, or disseminating any U.S. Filter Proprietary
Information:
2. Defendants are ENJOINED, permanently,
from using, disclosing, or disseminating any
USF/JWI Proprietary Information. . . .
Id. at 125a (emphasis added).
B. The Corporate Succession from U.S. Filter to
Evoqua
Evoqua is the successor-in-interest to U.S. Filter.
It operates out of the same facilities in Holland,
Michigan, employs the same employees, uses the same
documents, manufactures the same products, and sells
to the same customers as it and its predecessor entities
have for over 35 years.

6
After entry of the Permanent Injunction, U.S. Filter
was merged into other entities and underwent multiple
name changes. First, on August 31, 2006, U.S. Filter
was merged into Siemens Water Technology
Corporation. 2003 Dkt. 37-2 (Trademark Assign &
Cert. of Merger). In 2011, Siemens Water Technology
Corporation was merged into Siemens Water
Technology Holding Corporation. 2003 Dkt. 37-3
(Trademark Assign & Cert. of Merger). Siemens Water
Technology Holding Corporation then immediately
merged into Siemens Industries, Inc. 2003 Dkt. 37-4
(Trademark Assign & Cert. of Merger).
On March 28, 2013, the business unit previously
known as U.S. Filter was spun off from Siemens
Industries, Inc. as Siemens Water Technologies LLC
(“SWT”). 2003 Dkt. 37-14 (Wilderer Decl.); 2003 Dkt.
45-6 (2d Wilderer Decl.). As part of this spin-off, SWT
acquired all the assets of Siemens Industries’
“specialized business unit Water Technologies,” which
was the business unit that formally operated as U.S.
Filter. 2003 Dkt. 45-2 at 7 (Carve-Out Ag.); 2003 Dkt.
45-6 PgID.733.
SWT acquired all of U.S. Filter’s files and
documents, its “know-how,” which encompassed U.S.
Filter’s trade secrets and copyrighted documents and
information, its contracts, and its trademarks. 2003
Dkt. 45-2 at 8, 10-12, 22-23 ¶¶ 1.1.4, 2.1.1, 2.2, 3.1
(Carve-Out Ag.). SWT also acquired all of U.S. Filter’s
rights with respect to any litigation pertaining to U.S.
Filter:
Transferred Litigation. . . . Seller hereby
transfers to Purchaser, and Purchaser hereby

7
accepts the transfer of, all of Seller's rights and
obligations in connection with, and arising from,
any court or administrative proceedings,
including litigation and arbitral proceedings. . . .
Id. at ¶¶ 8.1-8.3 (excepting certain pending litigations
that were active at the time of the merger). SWT had
the right to replace U.S. Filter as the party in any
litigation involving U.S. Filter. Id.
On January 16, 2014, SWT changed its name to
Evoqua. 2003 Dkt. 37-7 (Trademark Assign. & Cert. of
Name Change). Evoqua is the successor-in-interest to
U.S. Filter and retains the rights to the trademarks
and proprietary information at issue in the Permanent
Injunction.
C. Watermark and Gethin
Contempt for Violating
Injunction

Were Held in
the Permanent

After Petitioners Watermark and Gethin settled the
2003 Litigation with Evoqua’s predecessor, Mr. Gethin
took the Permanent Injunction and “shoved it in a
drawer somewhere.” Dkt. 40-2 at 54:3-10 (Gethin
Depo. Tr. (Sealed)). Watermark hired at least twelve
former Evoqua employees, and never told them about
the injunction nor trained them on how to comply with
it. Dkt. 29-1 PgID.884-85 (Gethin Aff.).
Watermark and its employees willfully violated the
Permanent Injunction by taking and using Evoqua’s
proprietary information to build its business.
Watermark’s employees stole and used Evoqua’s trade
secrets, including spreadsheets that detail thousands
of sales of Evoqua equipment over twenty years. A

8
Watermark employee stole a customer contact list from
Evoqua and emailed it to himself when he began
working for Watermark. Watermark developed a copycat product of Evoqua’s own sludge dryers, using
technical manuals taken by Watermark employees, and
then Watermark gave the device a confusingly similar
name to a device manufactured and sold by Evoqua.
On January 8, 2016, Evoqua filed a Complaint in
the Western District of Michigan against M.W.
Watermark, LLC, its President, Michael Gethin, and
current and former employees of Watermark, to enforce
the Permanent Injunction (the “2016 Litigation”). Dkt.
1 (Complaint). The case was assigned to Judge Robert
Holmes Bell. Id.
On September 12, 2016, the district court held
Watermark in contempt for violating both provisions of
the Permanent Injunction. App. 1a-23a.3 The district
court found that Watermark repeatedly obtained and
used Evoqua’s proprietary information:
The clearest example of a violation of Paragraph
2 of the injunction is Watermark’s use and
dissemination of Plaintiff’s serial log files. It is
clear that the information in these files is
proprietary information as defined by the
permanent injunction. . . . Indeed, Defendants
concede that Watermark should not have
possessed this information.
...

3

“App.” refers to the Appendix to this Brief in Opposition.

9
Another example of a violation of Paragraph 2 is
Driesenga’s use of a customer contact list that
he brought with him from Siemens. The
injunction expressly prohibits the use of
customer lists, and Defendants acknowledge
that Watermark should not have possessed this
information.
Id. at 13a-14a. In addition, the district court found
that Watermark had used Evoqua’s trademarks in
violation of the Permanent Injunction:
Some of [Watermark’s web] pages used J-Mate
in the title or in keyword tags without
mentioning JMate products. The only plausible
reason for including J-Mate in these pages was
to attract customers looking for information or
products associated with J-Mate to Defendant’s
website. . . . Using the term J-Mate in keyword
tags or in the title of web pages advertising
Watermark’s sludge dryer is not a fair use, and
is likely to confuse. At the very least, it leads to
“initial-interest confusion,” which occurs when a
user interested in a particular brand of product
searches for that product in a search engine and
is led to a competitor’s page promoting a
different product.
Id. at 15a-16a. The district court ordered Watermark
and Mr. Gethin to pay sanctions, and requested
briefing on the amount. Dkt. 48 PgID.4517 (Contempt
Order). That briefing was completed on November 11,
2016. See Dkt. 76 (Response to Obj. on Fees).
However, Judge Bell did not issue an award prior to his
retirement.

10
D. The Successor-in-Interest Dispute
In 2016, Judge Robert Holmes Bell announced his
retirement from the bench. On February 1, 2017, after
the district court found Watermark and Gethin in
contempt, but prior to the issuance of an award of
sanctions to Evoqua, the 2016 Litigation was
reassigned to Chief Judge Robert J. Jonker. Dkt. 116
(Judicial Reassignment).
On April 7, 2017, Watermark moved for an order
dissolving or modifying the Permanent Injunction.
Watermark alleged that the injunction had been
“satisfied,” notwithstanding that the district court
found Watermark in contempt for violating it, and that
the injunction had allegedly become “unworkable”
because Evoqua was now seeking to enforce it. See
Dkt. 133, 134 (Mot. For Relief fr. Perm. Injunc.).
Watermark included a footnote in its memorandum
alleging that “[w]hile Defendants dispute that Evoqua
is the successor-in-interest to U.S. Filter/JWI, Inc., that
topic will not be argued in this brief.” Dkt. 134
PgID.6725 n.1 (Memo. in Support of Relief).
Watermark did not raise the successor-in-interest
issue prior to the Court’s order sanctioning Watermark
for violating the Permanent Injunction, which Judge
Jonker later acknowledged. Dkt. 29 (Opp. To Mot. For
Contempt); Pet. App. 108a-109a. In fact, Watermark
conceded, at multiple points in the litigation, that
Evoqua was the appropriate party to enforce the
Permanent Injunction:
On January 8, 2016, Evoqua filed this lawsuit
with 43 pages, nine counts, and 175 allegations,

11
and now states that “[t]his case is a continuation
of a case that was brought by Evoqua’s
predecessor-in-interest, U.S. Filter, against
Watermark (then “J-Parts”) and its owner
Michael Gethin.” . . . That is not the case. The
matters now raised by Evoqua are entirely
separate from those raised by Evoqua in the
2003 Litigation.
Dkt. 29 PgID.871 (emphasis added). Mr. Gethin, the
President of Watermark, filed a sworn affidavit
admitting that Evoqua was the successor-in-interest to
the original plaintiff in the litigation:
3. Plaintiff Evoqua Water Technologies LLC
(“Evoqua”) filed a Motion for Order Holding
Defendants M.W. Watermark and me personally
in contempt for violation of a Permanent
Injunction.
4. Plaintiff Evoqua is a successor to JWI.
Dkt. 29-1 PgID.880 (Gethin Aff.) (emphasis added); see
also id. PgID.882 ¶ 17 (“In the twelve (12) years since
resolution of the 2003 suit, U.S. Filter/JWI (now
Evoqua) and I have peacefully co-existed . . .”); id.
PgID.883-85 ¶¶ 24-39 (identifying employees hired
from Evoqua’s predecessors-in-interest between 2008
and 2015 as “former employees of Evoqua”). In their
Answer to the 2016 Litigation’s Complaint, both
Watermark and Mr. Gethin admitted:
For more than
predecessors
referred to as
continuously in

35 years, Evoqua and its
in interest (collectively
Evoqua) have been engaged
the business of marketing,

12
manufacturing and selling filter presses and
other dewatering equipment.
Dkt. 15 PgID.567 (Answer) (emphasis added).4
Nevertheless, the district court held that Evoqua’s
status as successor-in-interest was disputed. Dkt. 142
(Order). The district court ordered: (1) Defendants to
refile their Motion for Relief from the Permanent
Injunction in that case; (2) Evoqua to file a response to
Defendants’ motion in the 2003 Litigation; and (3) both
parties to file briefs outlining their positions on
whether Evoqua is or is not the successor-in-interest to
U.S. Filter. Id.; see also 2003 Dkt. 28 (Mot. For Relief);
2003 Dkt. 37 (Mot. to Substitute).
On June 27, 2017, a hearing was held regarding the
Motion for Relief from the Permanent Injunction, and
the successor-in-interest issue. At the outset of the
hearing, Judge Jonker presented the parties with a
case from the United States Court of Appeals for the
Federal Circuit that had not been cited or argued by
either party: Thatcher v. Kohl’s Dep’t Stores Inc., 397
F.3d 1370 (Fed. Cir. 2005). Judge Jonker suggested
that, pursuant to Thatcher, there was a question of
whether the right to enforce a permanent injunction
entered as part of a consent decree could be “assigned”
in the manner that a contract right could be assigned,
absent an express provision in the consent decree

4

In their answer to the First Amended Complaint, filed after the
district court granted Evoqua’s motion for contempt, Defendants
changed their response to this allegation to a denial. Dkt. 78
PgID.5893 (Answer to Amended Complaint).

13
permitting assignment. Dkt. 147 PgID.6899 ll. 2-22
(Hearing Tr.).
Judge Jonker then directed the parties to file briefs
addressing Thatcher, including:
(1) whether the consent judgment in 5:03-CV127 is assignable; (2) whether the consent
judgment was actually assigned to Evoqua; and
(3) whether the earlier contempt finding should
be vacated if there was no effective assignment.
2003 Dkt. 43 PgID.674-75 (Briefing Order).
Supplemental briefing was completed on August 4,
2017. See 2003 Dkt. 54 (Evoqua’s Resp. Supp. Br.).
E. The District Court’s Order Vacating the Prior
Contempt Order
On August 18, 2017, the district court issued an
opinion and order vacating the contempt order and
dismissing Evoqua’s claim for contempt. Pet. App.
105a-122a.
In its Vacating Opinion, the district court ruled that
Evoqua did not have standing to enforce the
Permanent Injunction because “[t]he consent judgment
in this case does not provide for enforcement by an
assignee of U.S. Filter.” Pet. App. 112a. The sole
authority relied on by the district court for this
proposition was the Federal Circuit’s opinion in
Thatcher, a case applying Illinois state contract law to
the construction of the consent decree at issue in that
case. Id. at 112a-113a.

14
The district court also held that Evoqua could not be
substituted as the plaintiff in the 2003 Litigation
pursuant to Rule 25 of the Federal Rules of Civil
Procedure. Id. at. 113a-114a. While the court
acknowledged that a plaintiff in a pending case could
transfer its assets to a third party, have the third party
substitute itself in the case as plaintiff, and receive the
benefit of an existing injunction, the court declined to
extend that reasoning to the instant case. Id. The
court determined that the 2003 Litigation was not
“open and unresolved.” Id. at 114a. According to the
district court, the 2003 Litigation “is closed because of
a settlement and consent judgment,” and therefore
Evoqua could not “now insert itself as a party to the
consent judgment.” Id. While the district court was
aware of case law holding that enforcement
proceedings can make a once-resolved case “pending
again,” the district court’s order did not address this
argument. Pet. App. 114a.
The district court’s prior contempt order was
vacated, and Evoqua’s claim for an order holding
Watermark in contempt was dismissed. Id. at 105a122a.
Litigation continued, and Evoqua’s claims for
trademark infringement and false advertising were
submitted to a jury.5 See id. at 82a-87a. The jury
5

Evoqua’s state law claims, including its claims for
misappropriation of trade secrets and breach of contract, were
severed by the district court after it revoked supplemental
jurisdiction, and remain pending in Michigan Circuit Court for the
County of Ottawa. Evoqua Water Technologies LLC v. M.W.
Watermark, LLC, Civ. A. No. 17-4997-CB (Mich. Cir. Ct.).

15
returned a verdict in favor of Evoqua on its trademark
infringement claim, and for Watermark on false
advertising. Id.
F. The Sixth Circuit Reverses the District
Court’s Order
On October 7, 2019, a unanimous panel of the
United States Court of Appeals for the Sixth Circuit
reversed Judge Jonker’s decisions on assignability and
ambiguity of the Permanent Injunction. Pet. App. 2a3a. The Sixth Circuit held that the Permanent
Injunction is assignable. Id.
The Sixth Circuit held that the Permanent
Injunction’s silence on the right of U.S. Filter to assign
the injunction to its successors was properly construed
to permit assignment, based on the principle under
Michigan contract law that agreements are freely
assignable absent a clear restriction to the contrary.
Pet. App. 12a. The appellate court’s decision was
grounded in this Court’s precedents, including United
States v. Armour & Co., 402 U.S. 673, 681 (1971) and
Blue Chips Stamps v. Manor Drug Stores, 421 U.S. 723,
750 (1975), as well as other established Sixth Circuit
precedent. Pet. App. 12a-15a.
The Sixth Circuit distinguished the Federal
Circuit’s decision in Thatcher on its facts. Unlike in
Thatcher, the Sixth Circuit found that the
circumstances surrounding the consent decree
supported U.S. Filter’s right to assign because the
Permanent Injunction addressed only Watermark’s
future actions and obligations, and did not purport to
address U.S. Filter’s. Id. Additionally, the consent

16
decree in Thatcher explicitly provided Thatcher the
right to enforce the judgment but did not extend that
right to Thatcher’s successors and assigns, while the
Permanent Injunction before the Sixth Circuit was
merely silent on enforcement. Id. at 13a-14a. Because
assignment of the Permanent Injunction was
permitted, the district court’s decision was reversed
and remanded.
On October 21, 2019, Watermark filed a petition for
rehearing en banc.
On November 21, 2019,
Watermark’s petition was denied because the original
panel reviewed the petition for rehearing and
concluded that the issues raised in the petition were
fully considered upon the original submission and
decision of the case, and no judge requested a vote on
the suggestion for rehearing en banc. Pet. App. 128a129a.
REASONS FOR DENYING THE PETITION
A. The Petition’s Questions Presented Ask This
Court to Resolve Factual Disputes
The questions presented in Watermark’s Petition
are grounded in implied facts that were never resolved
by the court below. Watermark does not ask this Court
to resolve a question of law, but instead to apply settled
law to resolve a factual dispute it has tried to create
regarding Evoqua’s status as a successor-in-interest.
Watermark presented this same argument to the Sixth
Circuit, which did not find it to be persuasive. CA 19
at 29-30. This Court should not be asked to act as a
fact finder in the first instance.

17
Watermark’s first question presented simply
paraphrases a passage from Blue Chip Stamps v.
Manor Drug Stores regarding third-party beneficiaries.
421 U.S. 723, 750 (1975) (“a well settled line of
authority from this court establishes that a consent
decree is not enforceable directly or in collateral
proceedings by those who are not parties to it, even
though they were intended to be benefited by it.”);
Pet. i.
Throughout this case, Watermark has tried to treat
Evoqua as if it were a third-party beneficiary to the
Permanent Injunction entered in the 2003 Litigation.
Pet. 9, 15, 19-21, 24-26. But this case is not, and has
never been, a case involving enforcement of a
permanent injunction by a third-party beneficiary.
Evoqua has always claimed rights as the successor-ininterest to U.S. Filter because it received the rights
originally given to U.S. Filter, and otherwise
represents a continuation of U.S. Filter’s prior
business—operating out of the same facilities in
Holland, Michigan, employing the same employees,
using the same documents, manufacturing the same
products, and selling to the same customers. Evoqua,
as the successor-in-interest to U.S. Filter, is the real
party in interest under the Federal Rule of Civil
Procedure 17 with respect to the 2003 Litigation, or at
least the transferee of the interest in the litigation
under Federal Rule 25(c). Fed. R. Civ. P. 17, 25.
Blue Chip does not purport to limit the enforcement
rights of real parties in interest, as opposed to thirdparty beneficiaries. See Blue Chip, 421 U.S. at 750.
Blue Chip concerned the alleged standing of third-

18
party beneficiaries to an agreement. Id. That case
held that a securities retailer could not bring a claim
under a consent decree entered between a securities
issuer and the government. Id. The retailer never
claimed that the government assigned or transferred
its rights to the litigation, only that it should have been
entitled to the rights under the consent decree because
the retailer was among the class of people intended to
be benefited by it. Id. at 749-750.
This Court’s other precedents have held that the
assignee of a legal or equitable interest in the subject
matter of a litigation has standing to pursue that
litigation. Sprint Commc’ns Co., L.P. v. APCC Servs.,
Inc., 554 U.S. 269, 282-85 (2008). When the assignee
receives the transfer of all rights, title, and interest in
a claim, they are asserting “legal rights of their own.”
Id. (emphasis in original).
Thus, Watermark’s first question presented merely
asks this Court to apply Blue Chip to its disputed
factual record and hold that Evoqua is—or should be
treated as—a third-party beneficiary. This Court
should not be asked to resolve factual disputes not
addressed by the court below.
Watermark’s second question presented
misrepresents the record by alleging that the Sixth
Circuit departed from the four corners of the
Permanent Injunction.
Watermark simply
paraphrases a passage from United States v. Armour &
Co., 402 U.S. at 682, stating that “the scope of a
consent decree must be discerned within its four
corners.”

19
However, Armour did not address the standing of
successors-in-interest to a consent decree.
See
generally id. Rather, the Court held that where the
parties negotiated a consent judgment that restricted
which entities the defendant could acquire, the Court
would not extend the consent judgment beyond its
terms to restrict the entities that the defendant could
be acquired by. Id. at 678-79. The government’s
failure to fully proscribe the scope of conduct it
sought to enjoin has no bearing on whether it was
capable of reaching the parties having an interest in
the litigation.
The Sixth Circuit did not depart from the fourcorners rule or rely on parol evidence when it construed
the Permanent Injunction to be assignable. Pet. App.
10a-15a. The appellate court did rely on “certain aids
of construction,” which this Court has held “is proper,
as with any other contract.” United States v. ITT
Cont'l Baking Co., 420 U.S. 223, 238 (1975). “Such
reliance does not in any way depart from the ‘four
corners’ rule of Armour.” Id. Specifically, the appellate
court considered the circumstances surrounding the
issuance of the injunction, one of the aids of
construction expressly permitted by ITT, to conclude
that the consent decree was intended to address only
Watermark’s future actions. The silence as to U.S.
Filter’s ability to assign its rights did not evidence an
intent to limit U.S. Filter’s ability to enforce its rights
through successors and assigns. Pet. App. 13a-14a.
Watermark appears to concede that the Sixth
Circuit panel’s decision was consistent with this
Court’s prior holding in ITT, but argues that the court

20
should instead adopt the reasoning of the dissent in
ITT. Pet. 17-18. By arguing the position of the ITT
dissent, Watermark is asking this Court to overrule its
precedent, not enforce it. Watermark faults the Sixth
Circuit for correctly applying Supreme Court case law.
In sum, the questions presented in the Petition
show that Watermark does not allege any error or
misapplication of Armour or Blue Chip. Rather,
Watermark asks this Court to simply apply Blue Chip
in a way that would treat Evoqua as a third-party
beneficiary, contrary to the factual record. Watermark
also does not ask what aids of contract interpretation
are proper for the court to apply. Rather, it assumes
that the Sixth Circuit departed from the four corners of
the Permanent Injunction because the Sixth Circuit
reached a different conclusion on the interpretation of
a specific consent decree than that of a sister circuit
construing a different consent decree.
The questions presented are grounded in disputes
of fact, and do not present any sufficiently important
question of law to warrant review by this Court. The
Petition should be denied.
B. Watermark Asks the Court to
Questions of State Contract Law

Resolve

Watermark’s Petition asks this Court to decide
between competing states’ contract laws. Petitioners
want this Court to reject the holding of the Sixth
Circuit, applying Michigan state contract law to
interpret the contract-like aspects of the Permanent
Injunction, in favor of an opinion of the Federal Circuit

21
applying Illinois state contract law. The Court should
not accept a petition to decide questions of state law.
Watermark frames its argument as an alleged
circuit split, even though its questions presented do not
allege any such circuit split. On one hand, Watermark
argues that the Federal Circuit applied this Court’s
Armour and Blue Chip precedent when it construed a
consent decree under Illinois state law to conclude
that the plaintiff in that case did not have the right to
assign the decree to a successor-in-interest. Pet. 20;
Thatcher, 397 F.3d at 1374 (“The parties did not
include a choice of law provision in the consent
judgment; accordingly, we apply the law of Illinois
where appropriate.”). On the other hand, Watermark
argues that the Sixth Circuit erred by applying this
Court’s Armour and Blue Chip precedent when it
construed the consent decree in this case according to
Michigan state law to conclude that the decree could
be assigned to Evoqua as the successor or assign of
U.S. Filter. Pet. 21-22; Pet. App. 11a (“In the absence
of controlling federal law, contractual interpretation of
the Consent judgment is governed by Michigan law.”).
Both the Sixth Circuit’s decision and the Federal
Circuit decision favored by Watermark applied this
Court’s precedent. In Thatcher, the Federal Circuit
relied on Armour for the proposition that a consent
decree must be construed within its four corners. 397
F.3d at 1374 (citing Armour, 402 U.S. at 681–82). The
Sixth Circuit cited Armour for the same principle. Pet.
App. 10a-11a (citing Armour, 402 U.S. at 682). The
Federal Circuit cited Blue Chip for the proposition that
third-party beneficiaries to a consent decree cannot

22
enforce the decree even if they were intended to be
benefitted by it. Thatcher, 397 F.3d at 1373 (citing
Blue Chip, 421 U.S. at 750). The Sixth Circuit cited
Blue Chip for the same principle. Pet. App. 11a (citing
Blue Chip, 421 U.S. at 750). Both cases are grounded
in the same law, correctly considered by the Sixth
Circuit in this case.
Watermark’s objection is not with the law that was
applied, but that the Sixth Circuit reached a different
result than the Federal Circuit. Pet. 21. However, the
cases considered different consent decrees and applied
different states’ contract laws.
Pet. App. 11a
(Michigan); Thatcher, 397 F.3d 1374 (Illinois). The
Petition never acknowledges that Thatcher applied
state law, even while arguing that the Sixth Circuit
erred for doing so. See generally Pet.
It was reasonable for the Sixth Circuit to apply
Michigan law to an agreement between two Michigan
entities, litigating claims arising in Michigan, and in
Michigan district courts. That the Sixth Circuit
reached a different result applying the same Supreme
Court law to a different consent decree in a different
state is not an issue that warrants further review by
this Court.
The Sixth Circuit distinguished Thatcher on its
facts. Pet. App. 12a-13a. Specifically, the Sixth Circuit
read Thatcher as holding that the consent judgment
could not be assigned because the judgment in that
case “explicitly provided Thatcher the right to enforce
the consent judgment without providing his assigns
that right.” Pet. App. 12a-13a. (citing Thatcher, 397
F.3d at 1373) (emphasis in original). In contrast, this

23
case involves a permanent injunction that is silent
about who has the right to enforce it. Pet. App.12a13a.
Watermark incorrectly attempts to frame its
Petition as a debate between the Sixth Circuit applying
Michigan state law, and the Federal Circuit applying
this Court’s precedents. Pet. 19-23. But the only
difference between the law applied by the courts is
state contract law. Watermark thus asks this Court to
decide that Illinois state contract law may be correctly
applied under this Court’s precedents, while Michigan
state contract law may not. This Court should decline
to do so.
C. The Petition Fails to Identify Any Relevant
Circuit Split
Watermark fails to identify any relevant circuit
split, either between the Sixth Circuit and Federal
Circuit, or with any other opinion cited by Watermark
in its Petition. There is no circuit split between the
Sixth Circuit decision in this case and the Federal
Circuit’s decision in Thatcher. Pet. 18-19.
As explained above, the Sixth Circuit distinguished
Thatcher on its facts. Supra Part I.B. Distinguishing
another circuit court’s opinion on the facts does not
create a circuit split between the courts. See PDR
Network, LLC v. Carlton & Harris Chiropractic, Inc.,
139 S. Ct. 2051, 2066 (2019) (Kavanaugh, J.
concurring) (circuit splits likely to trigger review by
this Court are splits “on the interpretation of the law”).
In any event, both Thatcher and the Sixth Circuit’s
opinion below turned on whether, under the particular

24
consent decree at issue in that particular case,
enforcement by successors and assigns of the original
named plaintiff was permitted. Compare Thatcher, 397
F.3d at 1373, with Pet. App. 10a-15a. Neither decision
turned on a significant question of federal law, or a
disagreement on the law between the circuits.
Watermark’s circuit split argument is also
inconsistent with its earlier arguments in the Petition,
and with its questions presented. While its questions
presented and at least some of its arguments fault the
Sixth Circuit for applying Michigan state law rather
than general federal common law for construing the
contract-like aspects of a consent decree, Watermark’s
alleged circuit split argument asks this Court to follow
a Federal Circuit decision that expressly applied
Illinois state contract law to construe the consent
decree at issue there. See Pet. 21-23; see also Thatcher,
397 F.3d at 1374 (“The parties did not include a choice
of law provision in the consent judgment; accordingly,
we apply the law of Illinois where appropriate.”).
Watermark also incorrectly alleges a split within
the Sixth Circuit between the instant decision, and a
1995 decision by the same court. Pet. 23 (citing
Huguley v. General Motors Corp., 67 F.3d 129 (6th Cir.
1995)). The 1995 decision is inapposite to this case and
irrelevant to the question of whether a split between
the circuits exists. Huguley turned on whether a
particular consent decree provided for successor
liability in the event that the defendant sold a facility
covered by the decree to another entity. Huguley, 67
F.3d at 132. But successor liability is not at issue in
this case. Successor liability is a distinct equitable

25
doctrine intended to prevent defendants bound to some
debt, liability, or judgment from escaping that
obligation by simply reforming under a different name
and otherwise continuing on as the same business free
of the predecessor’s obligation. See Restatement (Third)
of Torts: Prod. Liab. § 12 (1998).
Moreover, Huguley applies this Court’s law
consistently with the Sixth Circuit’s decision in this
case, and supports the Sixth Circuit’s decision here.
That Sixth Circuit panel relied on this Court’s
precedent holding that successor liability for violations
of a consent decree can be imposed notwithstanding the
successor was not a party to the original agreement.
Huguley, 67 F.3d at 132 (citing John Wiley & Sons, Inc.
v. Livingston, 376 U.S. 543, 548 (1964)). In John Wiley
& Sons, this Court held that in a consent decree
between a labor union and a corporation, the
employee’s rights under the consent decree do not
vanish if the original named corporation disappears
due to a merger:
the disappearance by merger of a corporate
employer which has entered into a collective
bargaining agreement with a union does not
automatically terminate all rights of the
employees covered by the agreement, and that,
in appropriate circumstances, present here, the
successor employer may be required to arbitrate
with the union under the agreement.
John Wiley & Sons, 376 U.S at 548. That is similar to
the Sixth Circuit’s holding in this case that the right to
enforce the consent decree entered against Watermark
does not vanish simply because the original plaintiff no

26
longer operates under that name due to mergers and
corporate transactions. Pet. App. 13a-14a. Indeed, the
successors and assigns of J-Parts/Watermark were
expressly obligated to comply with the Permanent
Injunction, which no party has argued is improper or
incorrect. Pet App. 124a.
Other circuits have reached the same conclusion as
the Huguley court regarding the enforcement of
consent decrees by successors of the original entity that
obtained the decree. See e.g., Newman v. Graddick,
740 F.2d 1513, 1517–18 (11th Cir. 1984) (Current state
officials had authority to enter into a consent decree
and bind “successor state officials” who, upon taking
office “become parties to [the] suit . . . and stand in the
shoes of their predecessors.”); Cornelius v. Hogan, 663
F.2d 330, 334 (1st Cir. 1981) (“[A]n entity taking over
the functions of a previous entity that was bound by [a
consent] decree . . . is a sufficient ground to bind [the
successor entity] to the decree. . . .”); see also United
States v. State of Mich., 940 F.2d 143, 165–66 (6th Cir.
1991) (“Only a named party or an intervening real
party in interest is entitled to litigate on the
merits. . . .”).
The Huguley court further held, like the Sixth
Circuit in this case, that to the extent the consent
decree represents an agreement between the parties,
its construction is “a question of contract
interpretation.” Huguley, 67 F.3d at 132. It held, as
the Sixth Circuit did in this case, that the inquiry was
primarily a factual one to determine the intent of the
parties. Id. at 134.

27
Finally, Watermark’s Petition argues an alleged
error of law in a Ninth Circuit case from 2008. Pet. 2426. However, this Petition is a poor vehicle for
addressing alleged errors in a decision of another
circuit, involving unrelated parties, and issues of law
and fact that were not considered by the Sixth Circuit
in this case, or briefed by either party. Lujan v. Defs.
of Wildlife, 504 U.S. 555, 573 (1992) (a petition “raising
only a generally available grievance about government”
does not state an Article III case or controversy).
Watermark has failed to identify a circuit split that
would justify granting certiorari.
D. The Unanimous Panel of the Sixth Circuit
Correctly Applied This Court’s Precedents
Watermark’s Petition incorrectly argues that the
unanimous Sixth Circuit panel did not apply this
Court’s precedents. The appellate court correctly
considered and applied this Court’s precedents
concerning the construction and scope of consent
decrees in deciding that the Permanent Injunction here
is assignable. The opinion explained that its decision
is consistent with this Court’s precedent that permits
courts to employ the ordinary aids of construction, as
with any contract. Watermark’s Petition fails to show
any way in which the Sixth Circuit’s opinion is
inconsistent with this Court’s precedents.
The Sixth Circuit’s decision was properly grounded
in this Court’s prior precedents regarding the
construction and operation of consent judgments. The
court looked to this Court’s decision in Armour for the
proposition that “[c]onsent decrees are entered into by

28
parties to a case after careful negotiation has produced
agreement on their precise terms.” Pet. App. 10a-11a.
(citing Armour, 402 U.S. at 681). And it relied on this
Court’s decision in Blue Chip for the principle that
consent decrees are “not enforceable directly in
collateral proceedings by those who are not parties to
it.” Pet. App. 11a. (citing Blue Chip, 421 U.S. at 750).
Other opinions of this Court have clarified that “the
basic import of Armour . . . is that, since consent
decrees and orders have many of the attributes of
ordinary contracts, they should be construed basically
as contracts” without reference to the relief the injured
party originally sought to attain through litigation, but
never proved due to the settlement. ITT, 420 U.S. at
236-37. This principle of construing consent decrees
has been reflected throughout the consistent holdings
of the Sixth Circuit, applying basic contract principles
to the construction of consent decrees. See e.g.,
Williams v. Vukovich, 720 F.2d 909, 920 (6th Cir. 1983)
(“A consent decree has attributes of both a contract and
of a judicial act.”); Sault Ste. Marie Tribe of Chippewa
Indians v. Engler, 146 F.3d 367, 372 (6th Cir. 1998)
(“[t]he primary goal in the construction or operation of
any contract is to honor the intent of the parties,” and
therefore the court “must look for the intent of the
parties in the words used in the instrument.”).
The Sixth Circuit was correct to look to state law as
part of the ordinary tools of contract construction. See
Saul Ste. Marie, 146 F.3d at 372. This Court permits
lower courts to rely on such tools, because “reliance
upon certain aids to construction is proper, as with any
other contract.” ITT, 420 U.S. at 238.

29
The Sixth Circuit looked at the circumstances
surrounding the entry of the Permanent Injunction and
concluded that “[t]he Consent Decree’s mere silence on
the question of assignability does not evince an intent
to prohibit assignment.” Pet. App. 13a. This silence
reflects the bargained-for position of the parties in view
of the consent decree as a whole:
Further, that the Consent Judgment explicitly
binds Watermark’s successors and assigns but
does not address U.S. Filter/JWI’s successors
and assigns makes sense in light of the fact that
the Consent Judgment addresses only
Watermark’s future actions and obligations—
that it may not infringe on certain trademarks
or use U.S. Filter/JWI’s proprietary
information—and does not address U.S.
Filter/JWI’s.
Pet. App. 14a. This decision was based on a plain
reading of the Permanent Injunction from within the
four corners of the decree.
Thus, the unanimous Sixth Circuit panel correctly
held that the Permanent Injunction was assignable to
U.S. Filter’s successors and assigns. Pet. App. 10a-15a.
This conclusion was supported by the principles of
Michigan state contract law which permit contract
rights to be assigned “unless the assignment is clearly
restricted.” Pet. App. 12 (citing Jawad A. Shah, M.D.,
PC v. State Farm Mut. Auto. Ins. Co., 920 N.W.2d 148,
158 (Mich. Ct. App. 2018)).
The Sixth Circuit’s opinion was also supported by
this Court’s precedent on injunctive relief. Pet. App.

30
12a-15a. Injunctions, such as the one entered against
Watermark and Gethin, are generally not intended to
dispose of the rights of both parties to the litigation.
An injunction is a court order that “directs the conduct
of a party, and does so with the backing of its full
coercive powers.” Nken v. Holder, 556 U.S. 418, 428
(2009). “[T]he order is directed at someone, and
governs that party’s conduct.” Id. (emphasis added).
It is a “mandate operating in personam.” Id.
Watermark’s own argument supports the Sixth
Circuit’s decision. See Pet. 17-18. Watermark admits
that other opinions of this Court have endorsed lower
courts’ “reliance upon certain aids of construction”
when construing the contract-like aspects of a consent
decree, “including the circumstances surrounding the
formation of the consent order, any technical meaning
words used may have had to the parties, and any other
documents expressly incorporated in the decree.” Pet.
17 (citing ITT, 420 U.S. at 238). Watermark appears
to concede that the Sixth Circuit applied Blue Chip and
Armour in view of ITT. See id. Instead of arguing that
the Sixth Circuit misapplied ITT, Watermark asks this
Court to instead adopt the position of the dissent from
ITT. Pet. 18.
Finally, Watermark’s position in the Petition is not
even consistent with its own arguments regarding Blue
Chip. Watermark argues that any party not named on
the face of an injunction should be treated like a thirdparty beneficiary, even successors or assigns. Pet. 19.
But, in the same section, Watermark argues that this
bar against third-party enforcement could be evaded if
expressly stated within the consent decree. Id.

31
Watermark cites no law for this proposition. See id.
And nothing in Blue Chip or Armour suggests that
third-party beneficiary rights in a consent decree can
be negotiated among the parties.
The Sixth Circuit’s decision was correct and
Watermark’s Petition offers no reason to disturb it.
CONCLUSION
For the reasons set forth above, the Petition for
Certiorari should be denied.
Respectfully submitted,
CRAIG R. SMITH
ERIC P. CARNEVALE
LANDO & ANASTASI, LLP
60 State Street, 23rd Fl.
Boston, MA 02109
(617) 395-7000
csmith@lalaw.com
ecarnevale@lalaw.com

KEVIN M. BLAIR
Counsel of Record
HONIGMAN LLP
315 E. Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
(734) 418-4242
kblair@honigman.com

Counsel for Respondent
April 2, 2020

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Opinion in the United States District
Court for the Western District of
Michigan Southern Division
(September 12, 2016) . . . . . . . . . . App. 1

App. 1

APPENDIX 1
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
File No. 1:16-cv-14
HON. ROBERT HOLMES BELL
[Filed September 12, 2016]
_________________________________________
EVOQUA WATER TECHNOLOGIES LLC, )
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK, LLC, et al.,
)
)
Defendants.
)
_________________________________________ )
OPINION
This is an action to enforce a permanent injunction
entered by stipulation of the parties (or their
predecessors) and signed by Judge McKeague in 2003,
as well as an action for trademark infringement,
misappropriation of trade secrets, false advertising,
copyright infringement, breach of contract, conversion,
unfair competition, and unjust enrichment. Plaintiff
Evoqua Water Technologies LLC (“Evoqua”)
manufactures and sells filter presses, sludge dryers,

App. 2
and other equipment for separating liquids from solids
in a process called dewatering. Defendant M.W.
Watermark, LLC (“Watermark”), also manufactures
and sells dewatering equipment, as well as aftermarket
replacement parts for equipment made by Evoqua and
other manufacturers. Defendant Michael Gethin is the
President and founder of Watermark.1
Before the Court is Evoqua’s motion for sanctions
and/or an order holding Watermark and Gethin in
contempt of court because they allegedly violated the
permanent injunction. (Mot. for Sanctions, ECF No.
22.)
I. Procedural History
Plaintiff filed its motion for sanctions in March 2016
and Defendants filed a response. At a hearing in April,
the Court determined that discovery and additional
briefing were necessary before the motion could be
resolved. The parties then conducted discovery. On
August 17, Plaintiff and Defendants filed supplements
to the motion and response. The Court held another
hearing on the motion on September 1, at which the
parties presented their respective arguments for or
against the motion.
II. Background
One of Evoqua’s predecessors, U.S. Filter/JWI, Inc.
(“U.S. Filter”), brought suit against Gethin and his
1

Plaintiff also sues two other employees of Watermark, Daniel
Janisse and James Vande Wege, who previously worked for
Evoqua/U.S. Filter. They are not the subject of the motion before
the Court.

App. 3
business (then called “J-Parts, LLC”) in 2003, alleging
trademark infringement, unfair competition, breach of
contract, and misappropriation of trade secrets. See
U.S. Filter/JWI, Inc. v. J-Parts, LLC, No. 5:03-cv-127
(W.D. Mich.) (McKeague, J.). Gethin had been
employed by U.S. Filter for a number of years but he
left in 2003 to start his own company, which he named
J-Parts, LLC. U.S. Filter owned, and Evoqua now
owns, the trademarks J-PRESS, J-MATE, and J-VAP
for its dewatering equipment. Gethin and his company,
J-Parts, LLC, sold parts for U.S. Filter’s dewatering
equipment. U.S. Filter alleged that Gethin and his
company were infringing its marks. Gethin
subsequently changed the name of his company to
M.W. Watermark, LLC. In December 2003, U.S. Filter,
Watermark, and Gethin settled the lawsuit and
stipulated to the entry of a judgment and permanent
injunction.
Paragraph 1 of the injunction covers the use of
trademarks. Gethin and Watermark are permanently
enjoined from using Evoqua’s trademarks, including:
J-PRESS, J-MATE, and J-VAP (“USF/JWI’s
Trademarks”) and colorable imitations
thereof . . . in a manner that is likely to cause
confusion, mistake or deception with respect to
USF/JWI’s trademark rights. By way of
example, but not limitation, Defendants are
ENJOINED from using:
A. The name “J-Parts” and any other name
incorporating the prefix “J-,” except pursuant
to a fair use thereof, e.g., identifying genuine
USF/JWI goods;

App. 4
...
C.
The
Internet
domain
name
“www.jpartsllc.com” and any other domain
name likely to cause confusion, mistake or
deception with respect to USF/JWI’s
trademark rights, including any domain
name incorporating USF/JWI’s Trademarks,
“J-,” J-Parts L.L.C., or “jparts”; by way of
example, but not limitation, the injunction
provided for herein prohibits Defendants’ use
of such terms in metatags for any web site
that any one or more of them may use in
connection with the business of selling spare
parts for dewatering equipment.
(Preliminary Injunction ¶ 1, ECF No. 40-1 (emphasis
added).)
Paragraph 2 of the injunction covers the use of
Evoqua’s proprietary information. It provides that
Gethin and Watermark are enjoined from “using,
disclosing, or disseminating” this information.
“Proprietary information” means:
[Evoqua] information not generally available to
the public that relates to the business or
activities of, or belongs to, or is controlled or
possessed by USF/JWI. The . . . Proprietary
Information includes, without limitation,
information obtained by Defendants from
[Evoqua’s] Enterprise Resource Planning
(“ERP”) System, serial histories, reports,
analyses, financial information, plans, proposals,
processes, sketches, photographs, . . . drawings,

App. 5
specifications, . . . customer lists, supplier and
vendor lists, contact lists, and information
related to costs, pricing, profits, markets, sales,
products, market studies and forecasts, pricing
policies and data, customers and customer
prospects, . . . agreements with customers,
suppliers, vendors, and others, . . . and servicing
and training programs and arrangements.
(Id. at ¶ 2.)
Plaintiff claims that Defendants have not complied
with either of these provisions. Plaintiff seeks a finding
of contempt and other sanctions.
III. Standard
The Court has inherent power to enforce compliance
with its orders through its contempt powers. Holding a
party in contempt is a matter of discretion, but the
movant must produce clear and convincing evidence
that the party “violated a definite and specific order of
the court requiring him to perform or refrain from
performing a particular act or acts with knowledge of
the court’s order.” Elec. Workers Pension Trust Fund of
Local Union No. 58, IBEW v. Gary’s Elec. Service Co.,
340 F.3d 373, 379 (6th Cir. 2003). The evidence must be
clear and unambiguous, and any ambiguities must be
resolved in favor of the party charged with contempt.
M&C Corp. v. Erwin Behr GmbH & Co., 298 F. App’x
927, 935-36 (6th Cir. 2008). Because a civil contempt
proceeding is remedial in nature, the moving party
does not need to demonstrate willfulness; the intent of
the party disobeying the court’s order is irrelevant. In
re Jacques, 761 F.2d 302, 306 (6th Cir. 1985).

App. 6
Once the movant establishes his prima facie case,
the burden shifts to the contemnor who may defend by
coming forward with evidence showing that he is
presently unable to comply with the court’s order.
United States v. Rylander, 460 U.S. 752, 757 (1983).
IV. Defendants’ Conduct
At his deposition, Gethin stated that he tried to
move on with his business after receiving a copy of the
injunction order. He does not recall looking at the order
again; he believes that he “shoved it in a drawer
somewhere.” (Gethin Dep. 54, ECF No. 43-1.) At the
time, Gethin was the only employee of Watermark, and
he believed that all issues regarding the use of
Plaintiff’s proprietary information and trademarks had
been taken care of, so he did not create or implement
any policies to ensure future compliance with the
injunction.
Later, as Gethin began to hire additional employees,
he did not tell them about the injunction. He believed
that the injunction was confidential because it was
attached as an exhibit to a confidential settlement
agreement. The settlement agreement, however,
expressly states that it can be discussed with
employees. (Settlement Agreement ¶ 6, ECF No. 1-8.)
Moreover, the permanent injunction is part of the
public record.
Because Gethin did not discuss the injunction with
his employees or create any policies to ensure
compliance, a number of new employees who had
worked for Evoqua (or its predecessors) brought with
them information regarding Evoqua’s customers, sales,

App. 7
pricing, and products. This information was potentially
useful to Watermark because Watermark is a direct
competitor of Evoqua. Both sell the same sort of
equipment (e.g., sludge dryers and filter presses). In
addition, both sell replacement parts for machines sold
by Evoqua (and its predecessors).
A. Proprietary Information
Paragraph 1 of the injunction prohibits Gethin and
Watermark from using, disclosing or disseminating
Plaintiff’s proprietary information, a term that is
defined to include: information from Plaintiff’s
Enterprise Resource Planning system, serial histories,
customer lists, and other information not generally
available to the public regarding Plaintiff’s pricing,
sales, and products. During discovery, the parties
discovered the following information in Watermark’s
possession:
1. Serial Log Files
Several “serial log files”2 from Evoqua’s ERP System
were found in Watermark’s possession. (ECF Nos. 40-9,
40-10.) These files contain several hundred pages of
information about equipment sold by Evoqua’s
predecessors from around 1980 to as recent as 2000,
including the serial number, model number, date
shipped, customer name, and customer contact. This

2

Watermark employee Jim Driesenga testified that a “serial log”
file is different from, and less detailed than, a “serial history” file.
A serial log contains information about equipment sold by Evoqua.
A “serial history” would also include information about every spare
part sold by Evoqua.

App. 8
information could be used by Watermark determine
which parts to sell to customers with Evoqua
equipment. (Driesenga Dep. 46-47, ECF No. 40-6.)
One such file was generated by a former Evoqua
employee, Dave Higgins, who left Evoqua in 2011 and
is now at Watermark. It was accessed as recently as
April 3, 2015, by Jim Driesenga, another former
Evoqua employee who is now at Watermark. Driesenga
obtained it from someone in Watermark’s aftermarket
sales department. (Id. at 52.) Driesenga used it to
determine the age of used Evoqua machines that were
being sold at auction. (Id. at 50-51, 58.)
Another serial log file was found in the possession
of Watermark’s project manager, Andrew Hagen, a
former Evoqua employee. Hagen apparently received it
from Watermark aftermarket salesperson Jeff Miller,
another former Evoqua employee. In October 2012,
Miller emailed it to Hagen along with a model number
and sales order number to determine which operation
and maintenance (“O&M”) manual should be sent to a
customer with a refurbished Evoqua/JWI filter press.
(Email, ECF No. 40-12.)
2. Customer contact list
The injunction also prohibits the use and
dissemination of Evoqua’s customer lists and contact
lists. Around the time that he left Siemens (another
Evoqua predecessor) in 2012, Driesenga emailed
himself a spreadsheet listing 118 customers. The list
includes details about the Evoqua equipment that they
purchased (including model and serial number), and
their phone and email contact information. (ECF No.

App. 9
40-13.) Driesenga acknowledged that the list would be
helpful to assess which replacement parts were needed
for his customers. (Driesenga Dep. 47.) However, he
contends that he rarely used the contact list except as
a reference to remember when and whether he had
worked with a customer. He did not use it to contact
customers or to persuade them to change vendors from
Siemens/Evoqua to Watermark.
3. O&M Manuals
The injunction also prohibits the use and
dissemination of information not generally available to
the public about Evoqua’s products, including drawings
and sketches. According to Gethin, Watermark
maintains a “library” of operation and maintenance
(“O&M”) manuals for Evoqua products. (Gethin Dep.
165.) Watermark sent copies of these manuals to its
customers with Evoqua/JWI equipment, either at the
customer’s request or in connection with the sale of
refurbished equipment (id. at 165) or with an order for
replacement parts (see Driesenga Dep. 91-92; 1/28/2010
Email, ECF No. 43-15). Before sending these manuals
to its customers, Watermark changed the contact
information in the manual from Evoqua/JWI’s
information to Watermark’s contact information.
(Gethin Dep. 166.)
In addition, the original manuals contain a notice
stating that they are the “proprietary information” of
JWI, for “customer and internal use only.” (ECF No.
43-25, PageID.3504.) Watermark changed this notice to
state that the manuals are the proprietary information
of Watermark. (Gethin Dep. 198-200.) The parties
dispute whether these manuals are generally available

App. 10
to the public. Plaintiff distributed these manuals to
customers when selling equipment. (Bosgraaf Dep. 66,
ECF No. 43-7.) Watermark obtains copies of the
manuals when purchasing used equipment. (Gethin
Aff. ¶ 21, ECF No. 29-1.)
4. Engineering Manuals
Watermark also possessed several of Evoqua’s
engineering manuals, which contain details about the
construction and operation of Evoqua’s equipment, as
well as information about the original pricing for
various parts. Watermark’s Senior Sales Engineer,
Paul Malik, a former employee of Siemens, kept copies
of these manuals when he left, including a J-Press
manual and a J-Mate manual. He used them “off and
on” while at Watermark to obtain “technical
information.” (Malik Dep. 70, ECF No. 43-3.) In
addition, in 2014, when Watermark was deciding what
options to offer for its DryMate sludge dryer, Malik
disseminated a list of options from the engineering
manual for the J-Mate dryer. (See Email, ECF No.
43-33.) The list contained the prices for these options
as of 2009. (Id. at PageID.4129.)
5. Price Lists
The injunction prohibits the use of Evoqua’s pricing
information not generally available to the public.
Gethin asserts that Watermark regularly collects
Evoqua’s spare parts price lists in order to set lower
prices for Watermark’s replacements parts. (See J-Mate
Dryer Spare Parts List (October 2006) (comparing
Evoqua prices to Watermark prices), ECF No. 43-32.)

App. 11
It is not clear where this information was obtained or
whether it is generally available to the public.
6. Supplier Information
The injunction prohibits the use and dissemination
of Evoqua’s supplier lists. In April 2015, Watermark
employee Dan Janisse sent an email to an Evoqua
employee, asking, “who were the primary FRP [tank]
Suppliers that Evoqua is currently engaged with?”
(Email, ECF No. 9-3, PageID.582.) When asking this
question, Janisse included a list of suppliers, stating,
“If my memory doesn’t fail me, do these suppliers ring
a bell[?]” (Id.) The Evoqua employee replied, “Your list
is our primary sources.” Janisse subsequently
contacted one of the suppliers on the list to obtain a
price quote.
Defendants note that no supplier list was exchanged
or otherwise disseminated in this e-mail
correspondence. Janisse apparently confirmed that the
information from his memory was correct. Moreover,
Watemark notes that it did not actually use this
information except to obtain a price quote from one of
the suppliers. Watermark did not purchase anything
from this supplier.
7. Training Materials
The injunction prohibits the use of its “sketches”
and “training programs” not generally available to the
public. In August 2015, Watermark circulated a
marketing email containing a sketch similar to one
created by Evoqua. In addition, Malik created a
presentation about filter presses (see ECF No. 43-36)
using several of the diagrams from a presentation

App. 12
created by an Robert Bosgraaf at Evoqua (see ECF No.
43-35). Watermark’s presentation was used for training
new employees. (Malik Dep. 27-28, ECF No. 43-3.)
Defendants contend that there was no confidential
information in Watermark’s presentation. Bosgraaf
testified that there is no secret to how filter presses
work (they have been the same for 200 years), and that
the information in his slide is not confidential.
(Bosgraaf Dep. 173, 176, ECF No. 39-10.)
B. Trademarks
1. J-Mate
The injunction prohibits Gethin and Watermark
from using “J-Mate” in a manner likely to cause
confusion, mistake or deception, except pursuant to a
fair use. Watermark used this term in various places
on its website:
• A page titled “J-Mate Archives – M.W.
Watermark” linked to an article about the
DryMate sludge dryer, titled “Is it Time to
Replace your Sludge Dryer?” (ECF No. 22-6.)
• An article about the DryMate sludge dryer
contained a list of “tagged” terms at the bottom,
including “J-Mate” and “JMate.” (Id. at
PageID.843.))
• A blog post titled “J-Mate® Versus DryMate™
Continuous Sludge Dryer: A Side by Side
Comparison” touted DryMate as a “direct
replacement for” and “improvement” over
J-Mate. (ECF No. 40-41.)

App. 13
None of these pages clarified that J-Mate products are
manufactured and sold by a different entity.
2. DryMate
The injunction prohibits the use of “colorable
imitations” of J-Mate in a manner likely to confuse.
Defendant sold a sludge dryer very similar to the
Evoqua sludge dryer, called DryMate.3
V. Application
A. Proprietary Information
Defendants correctly assert that mere possession of
proprietary information is not sufficient to find a
violation of the injunction. There must be evidence that
Defendants used, disclosed, or disseminated
information that is not generally available to the
public.
1. Serial Log Files
The clearest example of a violation of Paragraph 2
of the injunction is Watermark’s use and dissemination
of Plaintiff’s serial log files. It is clear that the
information in these files is proprietary information as
defined by the permanent injunction. Although
Defendants contend that these files are not “serial
history” files, which are specifically mentioned in the
injunction, the injunction also proscribes the use of
information from Plaintiff’s ERP system, including
information about Plaintiff’s sales. Indeed, Defendants

3

Defendant recently changed the name of its sludge dryer to
“M.W. Watermark Continuous Sludge Dryer.”

App. 14
concede that Watermark should not have possessed
this information. (Defs.’ Suppl. Br. at 11, ECF No. 35.)
It is also clear that Watermark used this
information (see id. at 12 (noting that Driesenga
“referenced the information to ascertain the age of a
piece of used machinery that was being auctioned for
sale”) and disseminated it among Watermark’s
employees (see Email, ECF No. 40-12). These files were
not discovered until July 2016, after the parties
engaged in discovery. (Def.’s Suppl. Br. at 10.)
2. Customer Contact List
Another example of a violation of Paragraph 2 is
Driesenga’s use of a customer contact list that he
brought with him from Siemens. The injunction
expressly prohibits the use of customer lists, and
Defendants acknowledge that Watermark should not
have possessed this information. (Id. at 6.) It is also
clear that Driesenga actually used this list while he
was at Watermark (id. at 8), though it appears that his
use was somewhat limited. Like the serial log files, the
contact list was not discovered until after the motion
for sanctions was filed. (Id. at 10.)
3. Other Information
As for the equipment manuals, price lists, supplier
list, and training presentation materials, it is less clear
that this information is covered by the injunction or
was used or disseminated by Defendants. There is
conflicting evidence about whether the equipment
manuals are generally available to the public. Plaintiff
offers no evidence to demonstrate that its pricing is not
generally available to the public. The alleged supplier

App. 15
list appears to have come from the memory of a
Watermark employee, created by that employee while
at Watermark. Thus, it is not a list that belongs to
Plaintiff. Finally, the slides in the training
presentation do not contain confidential information.
B. Trademarks
1. J-Mate
Paragraph 1 of the injunction prohibits the use of
marks beginning with “J-,” except pursuant to a fair
use. Watermark argues that its use of the term
“J-Mate” is a fair use. The blog article described
Plaintiff’s product, which is arguably a fair use, but
that is certainly not how J-Mate was used every
instance.
Some of the pages used J-Mate in the title or in
keyword tags without mentioning J-Mate products. The
only plausible reason for including J-Mate in these
pages was to attract customers looking for information
or products associated with J-Mate to Defendant’s
website. Indeed, Watermark’s employees were aware
that this could happen. One of them expressed concern
about using “J-Mate” so many times in the blog article,
asking, “Do we want to mention the J-Mate that much?
We might want to stress our positive improvements
over ‘existing dryer designs’ rather than describing the
shortcomings of the J-Mate in that much detail?”
(Email, ECF No. 43-38.) The author of the blog article
responded, “[I]f nothing else, it well help drive search
traffic to our blog and website, as the article is loaded
with relevant keywords.” (Id.) Another person
commented, “I just don’t like putting the competition[’]s

App. 16
product name out there that can enable a customer to
look at them too if sourcing for a new dryer
application.” (Id.) Another employee suggested, “Can
we set J-Mate as a meta tag or whatever they are
called without using J-Mate in the body of the blog
posting?” (Id.)
Using the term J-Mate in keyword tags or in the
title of web pages advertising Watermark’s sludge
dryer is not a fair use, and is likely to confuse. At the
very least, it leads to “initial-interest confusion,” which
occurs when a user interested in a particular brand of
product searches for that product in a search engine
and is led to a competitor’s page promoting a different
product. See Gibson Guitar Corp. v. Paul Reed Smith
Guitars, LP, 423 F.3d 539, 549 (6th Cir. 2005)
(discussing initial-interest confusion).
Defendants’ website was the fourth or fifth search
result when using Google to search for “J-Mate.” After
finding Watermark’s website, a customer reading the
site could readily believe Watermark sold genuine
J-Mate parts or products, or that DryMate was an
improved version of the J-Mate dryer, made by the
same entity. This belief would have been reinforced by
the blog post touting DryMate as a “direct
replacement” for the J-Mate dryer.
Consequently, the Court finds that Defendants
violated the clear terms of the injunction by using
J-Mate on Watermark’s website.
2. DryMate
The injunction also prohibits the use of colorable
imitations of Plaintiff’s marks. As indicated,

App. 17
Defendants advertised the “DryMate” sludge dryer as
a direct replacement for Plaintiff’s J-Mate sludge dryer.
Whether or not Defendants’ use of “DryMate” violated
the injunction presents a more complex question than
the use of J-Mate. Unlike J-Mate, the term DryMate is
not expressly identified as a prohibited mark in the
injunction. The Court must determine whether
DryMate is a “colorable imitation” of Plaintiff’s
trademarks and whether it was used in a manner that
is “likely to cause confusion.” (Permanent Injunction,
ECF No. 40-1.)
Plaintiff argues that the issue can be resolved in a
straightforward manner under the “safe distance rule.”
The Sixth Circuit generally applies the “safe distance
rule” when enforcing injunctions. See Innovation
Ventures, LLC v. N2GDistributing, Inc., 763 F.3d 524,
544-45 (6th Cir. 2014). The rule requires the defendant
to keep a “safe distance” away from the dividing line
between violation of and compliance with the
injunction. Sunbeam Prods. v. The West Bend Co., 123
F.3d 246, 260 (5th Cir. 1997); Broderick & Bascom
Rope Co. v. Manoff, 41 F.2d 353, 354 (6th Cir. 1930). It
“‘prevent[s] known infringers from using trademarks
whose use by non-infringers would not necessarily be
actionable.’” Innovation Ventures, 763 F.3d at 544
(quoting Taubman Co. v. Webfeats, 319 F.3d 770,
778-79 (6th Cir. 2003)).
In contempt proceedings, the rule “‘reliev[es] the
reviewing court of the need to retry the entire range of
issues that may be relevant in an infringement action
for each small variation the defendant makes to the
enjoined mark.’” Id. (quoting PRL USA Holdings, Inc.

App. 18
v. U.S. Polo Ass’n, Inc., 520 F.3d 109, 118 (2d Cir.
2008)). Where the rule applies, the Court is not
required to examine every issue that may be relevant
in an infringement action. The Court need not “go
through a full likelihood-of-confusion analysis” to
determine whether a product or mark is confusingly
similar to another. Id. at 545.
In this case, the safe distance rule does not apply
because Defendants are not “known infringers.” They
entered into the injunction by agreement with Plaintiff,
without a finding or acknowledgment of infringement.
See Taubman Co v. Webfeats, 318 F.3d 770, 779-80 (6th
Cir. 2003) (“[T]he Safe Distance Rule was meant to be
applied only against proven infringers.”); see also
Plough, Inc. v. Kreis Labs., 314 F.2d 635, 639 (9th Cir.
1963) (safe distance rule does not apply to enforcement
of consent decree entered with no acknowledgment of
infringement); accord Prince of Peace Enters., Inc. v.
Kwok Shing Import-Export, Inc., No. C 94-04183 CW,
1997 WL 475699, at *5 (N.D. Cal. July 8, 1997).
On the other hand, the Sixth Circuit has made clear
that the “safe distance” rule is an extension of the
Court’s equitable power to craft and enforce an
injunction. See Innovation Ventures, 763 F.3d at 543. In
other words, an injunction can be broader than what
the law requires, and the Court can make a contempt
finding even if the conduct at issue would not be
actionable as trademark infringement. Thus, the issue
is not necessarily whether Defendants’ use of DryMate
actually infringed Plaintiff’s trademark rights, but
whether that use violated the clear and definite terms
of the injunction. See Plough, 314 F.2d at 639

App. 19
(“Appellees . . . either violated the injunction, or they
did not.”).
In this case, the terms of the injunction require a
likelihood-of-confusion analysis, similar to what would
be required for a trademark-infringement claim. The
injunction not only refers to use that is “likely to cause
confusion,” it also employs the term “colorable
imitation,” which is defined in the Lanham Act as a
“mark which so resembles a registered mark as to be
likely to cause confusion or mistake or to deceive.” 15
U.S.C. § 1127. Thus, a likelihood-of-confusion analysis
is necessary to determine whether the use of DryMate
was improper.
The Court finds it unnecessary to undertake this
analysis at this stage, however. The Court has already
determined that Defendants violated the injunction by
using and disseminating Plaintiff’s proprietary
information and by using the term J-Mate. These
findings are sufficient to warrant contempt sanctions.
Moreover, as explained in more detail below, the
appropriate sanction in this case is to award Plaintiff
its reasonable attorney’s fees and costs for bringing the
lawsuit and the motion for sanctions. No additional
sanctions will imposed by the Court at this time.
Consequently, it is unnecessary for the Court to
determine whether Defendants also violated the
injunction by using DryMate.4

4

Plaintiff is, of course, free to pursue its claim of trademark
infringement on this issue, and to recover any damages to which
it may be entitled if it is successful.

App. 20
In short, the Courts finds that, at the very least,
Defendants violated the permanent injunction by
(1) using and/or disseminating the serial log files and
the contact list, and (2) using the term J-Mate on their
website. There is no evidence that Defendants are
presently unable to comply with the terms of the
injunction.
VI. Relief
Having determined that Plaintiffs have established
by clear and convincing evidence that Defendants
violated the clear and definite terms of the injunction,
the Court must determine the appropriate sanction.
“With respect to civil contempt proceedings, ‘[j]udicial
sanctions . . . may, in a proper case, be employed for
either or both of two purposes; to coerce the defendant
into compliance with the court’s order, and to
compensate the complainant for losses sustained.’”
Gary’s Elec., 340 F.3d at 379 (quoting United States v.
United Mine Workers of Am., 330 U.S. 258, 303-04
(1947)). “[T]he objective of any contempt determination
is to enforce the message that court orders and
judgments are to be taken seriously.” Id. at 385.
As relief, Plaintiff requests: (1) a contempt finding;
(2) disgorgement of Defendants’ profits on sales of all
aftermarket parts, supplies and services to Evoqua’s
customers since 2012; (3) disgorgement of Defendants’
profits on sales of the DryMate sludge dryers;
(4) Plaintiff’s costs and attorney’s fees for bringing the
action and the motion for sanctions; (5) a four-year
injunction preventing Watermark from selling services
and parts for Evoqua equipment; and/or (6) sanctions
in the amount of $1,000 per day until Watermark

App. 21
submits to e-discovery by an expert of Plaintiff’s
choosing (at Defendants’ expense) to provide a schedule
of all Evoqua materials in Defendants’ possession and
to certify that such materials have been removed.
The Court will find Defendants in contempt and
award Plaintiff its reasonable attorney’s fees and costs
for bringing the action and the motion for contempt.
The Court notes that Defendants made no effort to
comply with the injunction until concerns were raised
by Plaintiff in July 2015. Defendants assert that they
have taken significant remedial efforts since that time.
They claim to have purged all of Plaintiff’s proprietary
information. In addition, Watermark’s website no
longer uses the term “J-Mate” and its sludge dryer is
no longer called “DryMate.” However, these remedial
efforts do not change the fact that Defendants did not
heed the terms of an order entered by this Court, and
that a lawsuit and motion for sanctions were necessary
to secure Defendants’ compliance.
After Plaintiff first notified Defendants of some of
its concerns in July 2015, Gethin represented that he
spoke with all of his employees who had worked for
Evoqua and “was assured” that they had not retained
any “proprietary information related to Evoqua
equipment.” (8/14/2015 Email, ECF No. 29-1,
PageID.896.) He also represented that Watermark did
not have any of Evoqua’s “internal documents.” (Id.)
Gethin may not have been aware of it at the time, but
this representation was not accurate. It was not until
after Evoqua filed its lawsuit and motion for sanctions
that Defendants conducted a thorough review of their
files and then disclosed the serial logs, the contact list,

App. 22
and other documents. Similarly, Watermark did not
remove the term J-Mate from its website until after the
motion for contempt was filed. Plaintiff should be
compensated for the legal actions that it took to obtain
compliance with the clear terms of the injunction.
The Court declines to require disgorgement of
Defendants’ profits, however, because there is very
little evidence that Plaintiff’s non-public information
was used in any significant manner for Defendants’
benefit and to the detriment of Plaintiff. There is also
no evidence of actual customer confusion from
Defendants’ use of the terms J-Mate and DryMate,
and/or harm to Plaintiff therefrom. Indeed, there is
some evidence that Plaintiff was making significant
changes to its business during the relevant time period.
In 2014, Plaintiff communicated to its sales
representatives that it had decided to “exit” the J-Mate
product line. (See Letter, ECF No. 39-13.)5 It did not
sell any J-Mate dryers in 2014 and 2015 (though it
continued to sell replacement parts). (See Evoqua
J-Mate Dryer Bookings, ECF No. 43-40.) In these
circumstances, it is highly unlikely that all of
Defendants’ profits related to sales of the DryMate
dryer and J-Mate replacement parts since 2012 would
have accrued to Plaintiff if not for Defendants’ conduct.
Finally, the Court declines to award prospective
injunctive relief in the form of e-discovery and
certification requirements because the parties have

5

Plaintiff asserts that it decided to sell the J-Mate dryer as a
custom-order product instead of an off-the-shelf product, but that
it reversed course in 2016.

App. 23
already engaged in significant discovery and
Defendants turned over a significant quantity of
material that they acknowledge they should not have
possessed. Defendants continue to be bound by their
discovery obligations under the Federal Rules, and the
Court assumes that they will comply. Similarly, the
Court declines to issue a prospective injunction
enjoining future sales of parts and services for Evoqua
equipment because Defendants continue to be bound by
the broad terms of the permanent injunction, which the
Court maintains jurisdiction to enforce.
An order will enter that is consistent with this
Opinion.

Dated: September 12, 2016
/s/ Robert Holmes Bell________________
ROBERT HOLMES BELL
UNITED STATES DISTRICT JUDGE

